19838                                     Federal Register / Vol. 68, No. 77 / Tuesday, April 22, 2003 / Notices

                                                                                                                                              Fee per name
                                                           Query method                                                                                                     Examples
                                                                                                                                                in query

Entity query (Via Internet with electronic payment) .....................................................................                              $4.25    10 names in query.
                                                                                                                                                                10 × $4.25 = $42.50.
Practitioner self-query ...................................................................................................................            10.00    One self-query = $10.00.



  The Department will continue to                                         SUPPLEMENTARY INFORMATION:                                              The current fee structure of $5 for
review the user fee periodically, and                                                                                                          each separate query submitted by
                                                                          User Fee Amount
will revise it as necessary. Any changes                                                                                                       authorized entities was announced in a
in the fee and their effective date will                                    Section 1128E(d)(2) of the Social                                  Federal Register notice on June 11, 2001
be announced in the Federal Register.                                     Security Act (the Act), as added by                                  (66 FR 31245), and became effective on
                                                                          section 221(a) of the Health Insurance                               October 1, 2001. Based on the above
  Dated: April 9, 2003.
                                                                          Portability and Accountability Act                                   criteria and our analysis of operational
Elizabeth M. Duke,                                                        (HIPAA) of 1996, specifically authorizes
Administrator.
                                                                                                                                costs and the comparative costs of the
                                                                          the establishment of fees for the costs of                           various methods for filing and paying
[FR Doc. 03–9871 Filed 4–21–03; 8:45 am] 
                                processing requests for disclosure and                               for queries, the department is now
BILLING CODE 4165–15–P                                                    for providing information from the
                                                                                                                                               lowering the fee by 75 cents for each
                                                                          Healthcare Integrity and Protection Data
                                                                                                                                               query submitted by authorized
                                                                          Bank (HIPDB). Final regulations at 45
DEPARTMENT OF HEALTH AND                                                                                                                       entities—from $5 to $4.25.1
                                                                          CFR part 61 set forth the criteria and
HUMAN SERVICES                                                            procedures for information to be                                        When an authorized entity query is
                                                                          reported to and disclosed by the HIPDB.                              submitted for information on one or
Office of Inspector General                                               The Act also requires that the                                       more health care practitioners,
                                                                          department recover the full costs of                                 providers or suppliers, the appropriate
Healthcare Integrity and Protection                                                                                                            total fee will be $4.25 multiplied by the
                                                                          operating the HIPDB through such user
Data Bank: Change in User Fees                                                                                                                 number of individuals or organizations
                                                                          fees. In determining any changes in the
AGENCY: Office of Inspector General                                       amount of the user fee, the department                               about whom information is being
(OIG), HHS.                                                               employs the criteria set forth in                                    requested.
ACTION: Notice.                                                           § 61.13(b) of the HIPDB regulations.                                    In order to minimize administrative
                                                                            Specifically, § 61.13(b) states that the                           costs, the department will accept
SUMMARY: In accordance with final                                         amount of each fee will be determined                                queries submitted by authorized entities
regulations at 45 CFR part 61,                                            based on the following criteria:                                     by credit card or electronic funds
implementing the Healthcare Integrity                                       • Direct and indirect personnel costs;
                                                                            • Physical overhead, consulting, and                               transfer. The department will continue
and Protection Data Bank (HIPDB), the                                                                                                          to accept payment for self-queries only
department is authorized to assess a fee                                  other indirect costs including rent and
                                                                          depreciation on land, buildings and                                  by credit card. The HIPDB accepts Visa,
on all requests for information, except                                                                                                        MasterCard, and Discover. To submit
requests from Federal agencies. In                                        equipment;
                                                                            • Agency management and                                            queries, registered entities (including
accordance with § 61.13 of the HIPDB                                                                                                           law enforcement agencies) must use the
regulations, the department is                                            supervisory costs;
announcing an adjustment from $5 to                                         • Costs of enforcement, research and                               HIPDB Web site at www.npdb­
                                                                          establishment of regulations and                                     hipdb.com.
$4.25 in the fee charged for each query
                                                                          guidance;                                                               The department will continue to
submitted by authorized entities to
                                                                            • Use of electronic data processing                                review the user fee periodically, and
access the data bank. There will be no
                                                                          equipment to collect and maintain                                    will revise it as necessary. Any future
change to the current $10 self-query fee.
                                                                          information, i.e., the actual cost of the                            changes in the fee and its effective date
EFFECTIVE DATE: July 1, 2003.                                             service, including computer search                                   will be announced through notice in the
FOR FURTHER INFORMATION CONTACT: Joel                                     time, runs and printouts; and                                        Federal Register.
Schaer, Office of Counsel to the                                            • Any other direct or indirect costs
Inspector General, (202) 619–0089.                                        related to the provision of services.                                Examples

                                                                                                  Fee per name
                                                                                                   in query, by
                                    Query method                                                                                                           Examples
                                                                                                    method of
                                                                                                     payment

Authorized Entity query ...............................................................                       $4.25       10 names in query: 10 × $4.25 = $42.50.
Self-query ....................................................................................              $10.00       10 self-queries: 10 × 10 = $100.




  1 As part of its obligations under the Privacy Act,                     health care practitioners, providers or suppliers to                 practitioner self-query fee will continue to remain
the department previously announced a $10 fee for                         self-query (64 FR 58851; November 1, 1999). The                      at $10.
                           Federal Register / Vol. 68, No. 77 / Tuesday, April 22, 2003 / Notices                                    19839

  Dated: March 27, 2003.                        DEPARTMENT OF HEALTH AND                          The meeting will be closed to the
Dennis J. Duquette,                             HUMAN SERVICES                                  public in accordance with the
Acting Principal Deputy Inspector General.                                                      provisions set forth in sections
                                                National Institutes of Health                   552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
[FR Doc. 03–9873 Filed 4–21–03; 8:45 am]
                                                                                                as amended. The grant applications and
BILLING CODE 4152–01–P                          National Heart, Lung, and Blood                 the discussions could disclose
                                                Institute; Notice of Closed Meeting             confidential trade secrets or commercial
                                                   Pursuant to section 10(d) of the             property such as patentable material,
DEPARTMENT OF HEALTH AND
                                                Federal Advisory Committee Act, as              and personal information concerning
HUMAN SERVICES
                                                amended (5 U.S.C. Appendix 2), notice           individuals associated with the grant
National Institutes of Health                   is hereby given of the following                applications, the disclosure of which
                                                meeting.                                        would constitute a clearly unwarranted
National Heart, Lung, and Blood                    The meeting will be closed to the            invasion of personal privacy.
Institute; Notice of Closed Meeting             public in accordance with the                     Name of Committee: National Heart, Lung,
                                                provisions set forth in sections                and Blood Institute Special Emphasis Panel,
   Pursuant to section 10(d) of the             552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,      Food and Nutrient Systems for Research.
Federal Advisory Committee Act, as              as amended. The grant applications and            Date: June 3, 2003.
amended (5 U.S.C. Appendix 2), notice                                                             Time: 1 p.m. to 5 p.m.
                                                the discussions could disclose
                                                                                                  Agenda: To review and evaluate grant
is hereby given of the following                confidential trade secrets or commercial        applications.
meeting.                                        property such as patentable material,             Place: National Institutes of Health, 6701
   The meeting will be closed to the            and personal information concerning             Rockledge Drive, Suite 7200, Bethesda, MD
public in accordance with the                   individuals associated with the grant           20892, (Telephone Conference Call).
provisions set forth in sections                applications, the disclosure of which             Contact Person: Patricia A. Haggerty, PhD.,
                                                would constitute a clearly unwarranted          Scientific Review Administrator, Review
552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,                                                      Branch, Division of Extramural Affairs,
                                                invasion of personal privacy.
as amended. The grant applications and                                                          National Heart, Lung, and Blood Institute,
the discussions could disclose                    Name of Committee: National Heart, Lung,      National Institutes of Health, 6701 Rockledge
confidential trade secrets or commercial        and Blood Institute Special Emphasis Panel,     Drive, Room 7188, Bethesda, MD 20892,
                                                Functional Heterogeneity of the Peripheral      (301) 435–0280.
property such as patentable material,           Pulmonary and Lymphatic Vessels.
and personal information concerning                                                             (Catalogue of Federal Domestic Assistance
                                                  Date: June 10–11, 2003.
individuals associated with the grant                                                           Program Nos. 93.233, National Center for
                                                  Time: 7 p.m. to 5 p.m.
                                                                                                Sleep Disorders Research; 93.837, Heart and
applications, the disclosure of which             Agenda: To review and evaluate grant
                                                                                                Vascular Diseases Research; 93.838, Lung
would constitute a clearly unwarranted          applications.
                                                                                                Diseases Research; 93.839, Blood Diseases
invasion of personal privacy.                     Place: Holiday Inn Chevy Chase, 5520
                                                                                                and Resources Research, National Institutes
                                                Wisconsin Avenue, Chevy Chase, MD 20815.
  Name of Committee: National Heart, Lung,                                                      of Health, HHS)
                                                  Contact Person: David A. Wilson, PhD.,
and Blood Institute Special Emphasis Panel,     Scientific Review Administrator, Review           Dated: April 11, 2003.
Demonstration and Education Research.           Branch, Division of Extramural Affairs,         LaVerne Y. Stringfield,
  Date: July 28, 2003.                          National Heart, Lung, and Blood Institute,      Director, Office of Federal Advisory
  Time: 8 a.m. to 5 p.m.                        National Institutes of Health, 6701 Rockledge   Committee Policy.
  Agenda: To review and evaluate grant          Drive, Room 7204, MSC 7924, Bethesda, MD
                                                20892, (301) 435–0929.                          [FR Doc. 03–9923 Filed 4–21–03; 8:45 am]
applications.                                                                                   BILLING CODE 4140–01–M
  Place: Sheraton Columbia Hotel, 10207         (Catalogue of Federal Domestic Assistance
Wincopin Circle, Columbia, MD 21044.            Program Nos. 93.233, National Center for
                                                Sleep Disorders Research; 93.837, Heart and
  Contact Person: Patricia A. Haggerty, PhD,                                                    DEPARTMENT OF HEALTH AND
                                                Vascular Diseases Research; 93.838, Lung
Scientific Review Administrator, Review         Diseases Research; 93.839, Blood Diseases       HUMAN SERVICES
Branch, Division of Extramural Affairs,         and Resources Research, National Institutes
National Heart, Lung and Blood Institute,       of Health, HHS)                                 National Institutes of Health
National Institutes of Health, 6701 Rockledge
                                                  Dated: April 11, 2003.                        National Institute of Child Health and
Drive, Room 7188, Bethesda, MD 20892,
(301) 435–0280.                                 LaVerne Y. Stringfield,                         Human Development; Notice of Closed
(Catalogue of Federal Domestic Assistance       Director, Office of Federal Advisory            Meeting
                                                Committee Policy.
Program Nos. 93.233, National Center for
Sleep Disorders Research; 93.837, Heart and     [FR Doc. 03–9922 Filed 4–21–03; 8:45 am]           Pursuant to section 10(d) of the
Vascular Diseases Research; 93.838, Lung        BILLING CODE 4140–01–M                          Federal Advisory Committee Act, as
Diseases Research; 93.839, Blood Diseases                                                       amended (5 U.S.C. Appendix 2), notice
and Resources Research, National Institutes                                                     is hereby given of the following
of Health, HHS)                                 DEPARTMENT OF HEALTH AND                        meeting.
                                                HUMAN SERVICES                                     The meeting will be closed to the
  Dated: April 11, 2003.
                                                                                                public in accordance with the
LaVerne Y. Stringfield,                         National Institutes of Health                   provisions set forth in sections
Director, Office of Federal Advisory                                                            552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
Committee Policy.
                                                National Heart, Lung, and Blood
                                                Institute; Notice of Closed Meeting             as amended. The grant applications and
[FR Doc. 03–9921 Filed 4–21–03; 8:45 am]                                                        the discussions could disclose
BILLING CODE 4140–01–M                             Pursuant to section 10(d) of the             confidential trade secrets or commercial
                                                Federal Advisory Committee Act, as              property such as patentable material,
                                                amended (5 U.S.C. Appendix 2), notice           and personal information concerning
                                                is hereby given of the following                individuals associated with the grant
                                                meeting.                                        applications, the disclosure of which
